OIG Audit Report GR-30-03-001

Office of Community Oriented Policing Services Grants to the Prince William County Police Department
Woodbridge, Virginia


Audit Report GR-30-03-001


December 2002
Office of the Inspector General


Executive Summary

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Prince William County Police Department (grantee).  The purpose of the grants is to enhance community policing.  The grantee was awarded a total of $1,106,915 to hire 8 new police officers and redeploy the equivalent of 20 existing full-time police officers from administrative duties to community policing.

We reviewed the grantee's compliance with seven essential grant conditions.  We found weaknesses in two of the areas we tested:  reimbursement requests and officer redeployment.  As a result of the deficiencies identified below, we question $184,859 in grant funds received and recommend an additional $24,053 be put to better use.1

Costs Questioned
The grantee charged unallowable fringe benefit costs to the AHEAD ($1,133) and MORE 95 ($5,288) grants.
The grantee charged unallowable equipment costs to the MORE 95 ($1,190) and MORE 98 ($40,613) grants.
The grantee charged salary and fringe benefits to the MORE 95 grant past the grant expiration date ($31,081).
The grantee did not meet the required local match for the AHEAD ($5,552), MORE 95 ($53,794), and MORE 98 ($46,208) grants.


Funds to Better Use
The expired grants, AHEAD ($2,956) and MORE 95 ($21,097) have funds remaining and we recommend deobligation of these funds.


Other
The grantee used judgmental estimates to demonstrate redeployment.  COPS needs to clarify what approved estimation techniques are and demonstrate how the grantee's estimates for redeployment meet the COPS requirement for tracking redeployment.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.



Footnote

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.